March 1, 2005
Report No. 05-009


DRR’s Internal Loan Servicing




             AUDIT REPORT
                                                                                          Report No. 05-009
                                                                                               March 2005


                                 DRR’s Internal Loan Servicing
                                 Results of Audit

                                 We found that the DRR has an adequate management control process to
Purpose of Audit                 ensure that funds from internally serviced loans and related transactions are
                                 properly reported and credited to the FDIC. DRR generally disposed of
When an FDIC-insured             internally serviced receivership loans in an efficient manner after the
institution fails or is closed   closure of four financial institutions in 2004. However, 11 of 26 low-value
by a federal or state            non-performing loans in our sample were not being managed in an
regulatory agency, the FDIC      efficient manner, and some asset files had not been created and maintained
is appointed as receiver. To     in accordance with DRR policies and instructions. We also identified 43
fulfill the FDIC’s respon-       other low-value loans that were not being efficiently managed. Therefore,
sibilities to creditors of the   a total of 54 loans that we reviewed, with a total book value of
failed institution, the
                                 $1.9 million, have remained in the FDIC’s asset inventory for 2 years
Division of Resolutions and
Receiverships (DRR)              without significant progress towards disposition. The inefficiencies are
manages and sells the            generally related to the fact that account officers responsible for the loans
receivership’s assets through    in our audit sample had been detailed or were otherwise not able to
a variety of strategies and      actively work assigned loans for an extended period.
identifies and collects monies
due to the receivership. One     Recommendation and Management Response
aspect of DRR’s manage-
ment of receivership assets is   The report recommends that the Director, DRR, require a prompt
servicing loans that are         supervisory review for internally serviced receivership loans assigned to
retained by the FDIC for
                                 account officers who are detailed or otherwise unable to manage their loan
management and disposition.
Loans are assigned to            portfolios to ensure that (1) loans are being actively managed, (2) a cost-
account officers in DRR’s        effective disposition strategy is being used, and (3) asset files are being
Asset Management Section         created and maintained in accordance with DRR policies and instructions.
for management until the
loans are resolved and           FDIC management generally agreed with the recommendation and has
dispositioned.                   taken or planned actions to address it.
As of August 31, 2004, the
FDIC had an inventory of
273 receivership loans with
a total book value of
$119 million.

The objective of the audit        Sampled Loans Not Yet Dispositioned as of December 31, 2004
was to determine whether
                                                         Number of Loans
DRR is adequately and
efficiently managing and              Receivership           Identified        Total Book Value
processing internally serviced    Oakwood                        45                   $ 905,773
loans.                            CBC                             7                      954,178
                                  Superior                        1                       10,029
                                  Hamilton                        1                       19,663
To view the full report, go to     Totals                        54                   $1,889,643
www.fdicig.gov/2005reports.asp    Source: DRR Asset Loan Files.
                             TABLE OF CONTENTS

BACKGROUND                                                   1

RESULTS OF AUDIT                                             2

      Management of Internally Serviced Loans                3
      Maintenance of Asset Files                             6
      Conclusion                                             6
      Recommendation                                         7

CORPORATION COMMENTS AND OIG EVALUATION                      7

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY                8

APPENDIX II: SUMMARY SCHEDULE OF AUDIT SAMPLE               9
             AND EXCEPTIONS REPORTED

APPENDIX III: CORPORATION COMMENTS                          10

APPENDIX IV: MANAGEMENT RESPONSE TO                         12
             RECOMMENDATION

TABLES
Table 1: The FDIC’s Internally Serviced Receivership Loan    2
         Inventory as of August 31, 2004
Table 2: Loans in Our Audit Sample                           4
Table 3: Sampled Loans Not Yet Dispositioned                 6
Federal Deposit Insurance Corporation                                                                            Office of Audits
801 17th Street NW, Washington, DC 20434                                                            Office of Inspector General


DATE:                                  March 1, 2005

MEMORANDUM TO:                         Mitchell L. Glassman, Director
                                       Division of Resolutions and Receiverships




FROM:                                  Russell A. Rau [Electronically produced version; original signed by Russell A. Rau]
                                       Assistant Inspector General for Audits

SUBJECT:                               DRR’s Internal Loan Servicing
                                       (Report No. 05-009)

This report presents the results of the Federal Deposit Insurance Corporation (FDIC) Office of
Inspector General’s (OIG) audit of the Division of Resolutions and Receiverships’ (DRR) internal
loan servicing. Internal loan servicing involves both financial processing and loan management
and is discussed in detail below. The objective of this audit was to determine whether DRR is
adequately and efficiently managing and processing internally serviced loans. Additional details
on our objective, scope, and methodology are in Appendix I.


BACKGROUND

When an FDIC-insured institution fails or is closed by a federal or state regulatory agency, the
FDIC is appointed as receiver.1 To fulfill the FDIC’s responsibilities to creditors of the failed
institution, DRR manages and sells the receivership’s assets through a variety of strategies and
identifies and collects monies due to the receivership. One aspect of DRR’s management of
receivership assets is servicing loans that are retained by the FDIC and not assigned to contractors
for management and disposition. DRR uses the National Processing System (NPS) to record
transactions and activity for these internally serviced loans.

Internal loan servicing involves two processes – financial processing and loan management.
Financial processing encompasses activities associated with receiving and controlling monetary
items from all liquidation sources until the items are deposited in the correct account or forwarded
to the appropriate recipient. DRR’s Financial Processing Unit (FPU), in the Dallas Regional
Office, records loan receipt and related transactions in the FDIC’s general ledger. The procedures
and internal control objectives for financial processing are included in the FDIC’s Field Financial
Operations Accounting Manual. The loan management process involves activities associated
with implementing an asset disposition strategy that obtains the maximum recovery value for a
loan. These activities are performed by DRR’s Asset Management Section, which is also in the
Dallas Regional Office. Policies, procedures, and guidelines for asset management are contained


1
 The FDIC acts as a receiver for failed insured depository institutions. As receiver, FDIC is charged with winding
up the affairs of failed institutions, including the liquidation of failed institutions and the disposition of their assets.
                                                              1
in DRR’s Asset Disposition Manual (ADM). As of October 31, 2004, the FPU had processed
5,363 monetary items totaling about $263 million since the beginning of the calendar year.

As of August 31, 2004, the FDIC’s NPS included an inventory of 273 receivership loans with a
total book value of $119 million. Loans are assigned to account officers in DRR’s Asset
Management Section to be managed until the loan is resolved and dispositioned.2 Table 1 below
summarizes the FDIC’s internally serviced receivership loan inventory.

Table 1: The FDIC’s Internally Serviced Receivership Loan Inventory as of August 31, 2004
        Status                Loan Type            Number of Loans         Total Book Value*
      Performing              Installment                   4                      $      61,159
                             Commercial                    22                          6,879,179
                               Mortgage                    10                          2,254,118
Total Performing                                           36                          9,194,456
   Non-Performing             Installment                  41                            458,102
                             Commercial                   156                        102,096,203
                               Mortgage                    39                          7,414,833
                                Student                     1                              1,222
Total Non-Performing                                      237                        109,970,360
Total Loans                                               273                      $119,164,816
Source: The FDIC’s NPS.
* Book value is the value of the loan on the balance sheet, i.e., the outstanding principal balance. Book value does
not represent the value of the collateral or market value of the loan.

Account officers’ responsibilities include contacting and negotiating with the debtor, identifying
and valuing loan collateral, updating asset tracking systems, managing escrow accounts for taxes
and insurance, initiating and conducting collection and/or foreclosure efforts on delinquent loans,
and maintaining asset files that contain documentation on loan management activity. Account
officers use the Credit Notation System (CNS), an on-line database, to record significant loan
actions, including a supervisory review of the account officer’s loan portfolio(s), if the review is
performed, and to update the status of the loans assigned. Additionally, supervisors in DRR’s
Asset Management Section rely on the information in CNS to monitor activity on the loans
assigned to account officers.


RESULTS OF AUDIT

We found that DRR has an adequate management control process to ensure that funds from
internally serviced loans and related transactions are properly reported and credited to the FDIC.
DRR generally disposed of receivership loans in an efficient manner after the closure of four
financial institutions in 2004. We also found, however, 11 of 26 low-value non-performing
loans in our sample were not being managed in an efficient manner and that some asset files had
not been created and maintained in accordance with the ADM and DRR instructions. We also
identified an additional 43 low-value loans that were not being efficiently managed. Therefore, a




2
    That is, the loan can be sold, paid off, foreclosed, written off, etc.


                                                                2
total of 54 loans – the 11 loans in our sample and an additional 43 loans – with a total book value
of $1.9 million have remained in the FDIC’s asset inventory for 2 years without significant
progress towards disposition.

Management of Internally Serviced Loans

DRR’s policy, as stated in the ADM, dated March 16, 1999, is to administer and dispose of
assets in a manner that returns the maximum net present value for the loan. For each asset type,
the ADM includes an asset disposition business plan that outlines DRR’s primary asset
disposition strategies. The ADM states that account officers should employ these strategies
when disposing of assets. Each business plan includes a timeline for the disposition of assets by
asset type. The business plan suggests that initiation of foreclosure action and litigation
proceedings on severely delinquent loans should occur after a loan is in the FDIC’s inventory for
180 days. The FDIC’s 2004 Annual Performance Plan for the Receivership Management
Program sets a performance goal of marketing 85 percent of a failed institution’s marketable
assets within 90 days of a financial institution’s failure. DRR has set an internal goal of selling
90 percent of the book value of a failed financial institution’s marketable assets within 180 days
of the institution’s closure.

We found that for the four financial institutions that failed during 2004, DRR sold over
90 percent of the 1,326 receivership loans acquired within 180 days after closure of the
institutions. The loans had a total value of about $84 million. However, we also found that
some loans with low dollar values had not been efficiently managed.

To evaluate whether internally serviced loans were adequately and efficiently managed, we
selected a random sample of 31 loans from the NPS inventory for review. The inventory
consisted of 237 non-performing loans and 36 performing loans. Performing loans are generally
maintained until any impediment to selling the loan is resolved and it can be sold. Impediments
to selling performing loans include documentation problems with the loan file, investigative
matters, bankruptcy, or litigation. Management of non-performing loans involves working to
resolve impediments to selling the loans, contacting borrowers to determine why the loan is non-
performing, and implementing an asset disposition strategy to either make the loan performing or
foreclose on the related collateral to obtain the best monetary recovery available for the loan.

Of the 31 loans in our sample, 26 were non-performing loans and 5 were performing loans. For
each loan, we obtained the asset file to determine whether it had been created in accordance with
the ADM, whether the file contained evidence that the loan was managed in a timely manner, the
reason the loan had not been sold, and whether actions were in process to attempt to make the
loan marketable. For example, if the loan had not been sold due to documentation deficiencies,
we reviewed the files for evidence that actions had been taken to resolve the deficiencies so the
loan could be sold. If information on the loan indicated that it was uncollectible, we conducted
additional audit procedures to determine why the loan had not been written off (dispositioned).
Details on our sample results are in Appendix II.

Our review indicated that the five performing loans in our sample were adequately and
efficiently managed and that actions were being taken in a timely manner to make the loans
marketable. We also found that of the 26 non-performing loans in our sample, 15 loans with the
highest values in our sample were managed adequately and efficiently. However, the remaining


                                                 3
11 loans that had the lowest values could have been managed in a more efficient manner. The
loans, listed in Table 2, were acquired over 2 years ago, and there has been no significant
progress towards dispositioning them.

Table 2: Loans in Our Audit Sample
  Loan Type        Receivership              Date of Bank          Book Value
                                                Failure
 Installment          Oakwood                 02-01-2002         $14,246.17
 Installment          Oakwood                 02-01-2002           1,236.81
 Installment          Oakwood                 02-01-2002           7,543.26
 Installment          Oakwood                 02-01-2002           2,000.00
 Commercial           Oakwood                 02-01-2002          11,311.50
  Mortgage            Oakwood                 02-01-2002           7,355.94
  Mortgage            Oakwood                 02-01-2002          22,747.67
  Mortgage            Oakwood                 02-01-2002          19,319.34
 Commercial        Connecticut Bank           06-26-2002         $37,937.98
                    of Commerce
 Installment           Superior               07-27-2001         $10,029.67
 Commercial           Hamilton                01-11-2002         $19,662.64

These loans are discussed in detail in the following sections.

       Oakwood Receivership Loans

       Eight of the eleven loans in our sample were related to the Oakwood receivership, which
       was established on February 1, 2002. According to CNS information, these loans were
       assigned to a DRR account officer in May 2003. They were originally purchased by an
       assuming bank or another third-party investor in February 2002 but were repurchased by
       the FDIC in November 2002. The loans were involved in a forensic accounting review
       from January to May 2003 to determine whether they were connected to fraud
       perpetrated at the failed bank. The forensic accounting review determined that these
       loans were not fraudulent, and they were assigned to an account officer. DRR Asset
       Marketing did not desire to market these loans because they had documentation problems
       and the balances had not been confirmed. CNS information on the loans showed that
       loan management activity conducted from May 2003 to January 2004 related only to
       identification of the debtor and collateral related to the loans. In January 2004, the loans
       were reassigned to another account officer, who was then assigned to a bank closing and
       various other assignments until October 2004. As a result, no significant progress has
       been made to disposition the loans.

       During our review of the 8 loans, we identified 37 additional Oakwood receivership loans
       in the NPS loan inventory that had been assigned to the same account officer and have
       received little attention since the FDIC repurchased them. The 45 loans in the Oakwood
       receivership, that is, the 8 loans in our sample and the 37 additional loans in the NPS
       inventory, have a total book value of $905,773.

       DRR informed us that since completion of our audit, a supervisory review was conducted
       on the account officer’s loan portfolio and that 19 of the loans discussed above have now

                                                 4
been reassigned to another account officer. Also, since the recent supervisory review, the
account officer has taken action to resolve the other 26 loans referred to above.

Connecticut Bank of Commerce Receivership Loans

Our sample included one loan from the Connecticut Bank of Commerce (CBC)
receivership, which was established in June 2002. This loan was part of a line of seven
loans related to equipment leases with a total book value of $954,178. According to
information in CNS, the loan was not assigned to an account officer until April 2003. No
promissory note or collateral files had been located by the account officer on the loan as
of October 2003, and in February 2004, the account officer determined that it should be
written off after completion of some additional research on the line of assets. According
to CNS, a supervisory review was conducted in June 2004 on this asset. Overall, as of
November 2004, little progress had been made in dispositioning this loan since it was
acquired. Part of the reason for the lack of progress on this loan was that the account
officer had been detailed to a bank closing and other assignments during the year, which
limited his ability to perform research necessary to evaluate the loans. The six other
related loans from the CBC failure are in a similar status. The sampled loan and the six
additional loans have a total book value of $954,178. DRR informed us in January 2005
that the debtor related to these assets has not been responsive to requests for financial
information. At the present time, DRR is attempting to verify the status of these assets
and obtain a legal opinion as to the statute of limitations on the equipment leases.

Superior Receivership Loan

One loan in our sample from the Superior receivership had a book value of only $10,029.
CNS information showed extensive loan management activity since August 2002, but
little progress has been made in dispositioning the loan. The loan was first assigned to an
account officer in August 2002 as a result of the failure of Superior Bank. The loan file
did not contain a title to the vehicle for the car loan, and the debtor indicated from the
outset that he was not going to pay the loan. In January 2003, the loan was reassigned to
another account officer who continued working the loan in an attempt to obtain the title
for more than a year without success. The CNS contained information on the extent of
work by the account officer. However, CNS contained no record of a supervisory review
of the management of the loan until November 2003, at which time the Section Chief
indicated that the loan should be written off. Nevertheless, as of November 2004, no
further progress had been made, and no action had been taken to write off this loan. DRR
informed us that the loan was written off in early December 2004.

Hamilton Receivership Loan

One loan in our sample with a book value of $19,663 from the Hamilton receivership was
first assigned to an account officer in July 2002. The account officer worked with the
debtor for 4 months in an attempt to obtain loan payment. In November 2002, one of the
Asset Management Section Chiefs advised the account officer either to include the asset
in a bulk sale or to write off the asset. In April 2003, DRR Asset Marketing decided that
the loan had no recovery value and, therefore, the loan was not included in a bulk sale. In
August 2003, the account officer reported in CNS that the company had closed and that


                                         5
       the asset would be written off. As of November 2004, however, no further progress had
       been made in writing off this loan. Again, DRR informed us that in early December
       2004, the loan was written off.

The 11 low-value loans in our sample and the additional 43 loans that have not yet been
dispositioned are summarized in Table 3.

Table 3: Sampled Loans Not Yet Dispositioned
         Receivership       Number of Loans Identified                      Total Book Value
Oakwood                                   45                                    $905,773
CBC                                        7                                     954,178
Superior                                   1                                       10,029
Hamilton                                   1                                       19,663
 Total                                    54                                  $1,889,643

Maintenance of Asset Files

The ADM requires the account officer to maintain an asset file, separate from the original bank
files, that contains all documentation generated after the FDIC acquires a loan. For example, the
asset file should contain copies of the promissory note and collateral documentation and all
agreements made with the borrowers and results of meetings and telephone conversations, which
must be documented in writing. DRR’s Internal Review Section issued a Process Improvement
Review report in April 2004, describing deficiencies in asset file maintenance by DRR account
officers. In May 2004, DRR management issued a memorandum to all account officers,
providing instructions for the preparation of an organized asset file, which was to be separate
from the original bank files. The memorandum states that an asset file should be created for
every asset assigned to an account officer.

In October 2004, we requested the asset files for the 31 loans in our sample. We found that for
7 of the 31 loans we reviewed, asset files either had not been created in accordance with the
ADM or had not been maintained in accordance with DRR management’s instructions.
Specifically, the files for five of the loans were not organized in a manner that facilitated locating
pertinent documents, and separate asset files were not provided for two of the loans. The May
2004 memorandum to account officers stated that failure to maintain a separate asset file can
severely jeopardize collection efforts. Although supervisors meet with DRR account officers to
periodically discuss asset disposition strategies, supervisors told us they do not review the
account officers’ asset files.

Conclusion

Overall, DRR has dispositioned internally serviced receivership loans in an efficient and timely
manner. The inefficiencies discussed in this report are generally related to the fact that account
officers responsible for the loans in our audit sample had been detailed or were otherwise not
able to actively work assigned loans for an extended period. Whenever account officers are
detailed or otherwise unable to manage their loan portfolios, prompt supervisory reviews of the
account officers’ loan portfolios may prevent long periods of inactivity to disposition the loans.
A supervisory review of the portfolio at that time to determine whether the loans should be
reassigned would ensure that the loans are managed and dispositioned efficiently and that future

                                                  6
inefficiencies do not occur. The supervisory review would become even more important when
there is a high volume of assets. Further, including a review of asset files during the supervisors’
periodic reviews of the account officers’ loan portfolios would help to ensure that asset files are
maintained in accordance with the ADM and DRR management instructions. In view of DRR’s
planned reorganization of the asset management function, it is critical to create and properly
maintain asset files that may be reassigned to account officers.

Recommendation

We recommend that the Director, DRR, require a prompt supervisory review for internally
serviced receivership loans assigned to account officers who are detailed or otherwise unable to
manage their loan portfolios to ensure that (1) loans are being actively managed, (2) a cost-
effective disposition strategy is being used, and (3) asset files are being created and maintained
in accordance with the ADM and DRR management instructions.


CORPORATION COMMENTS AND OIG EVALUATION

DRR management concurred with the recommendation and has taken corrective action. DRR
has taken the following steps to implement the OIG’s recommendations. First, supervisors have
been instructed, in writing, to ensure that every loan asset has been reviewed in the past 90 days.
DRR included a copy of the instructions as part of its formal response to our draft report. The
supervisors have been reminded of their obligation to ensure that all loans are being actively
managed and that a cost-effective disposition strategy is in place. Second, although management
has recently circulated a memorandum reminding all account officers of their obligation to create
and maintain asset files on each loan relationship, management will again remind all account
officers of the DRR requirements regarding asset files. The review of assets and the reminder to
account officers will be accomplished by May 31, 2005.

According to DRR, as a result of our audit, most of the assets cited in the preliminary draft audit
report have been reassigned to account officers who are not detailed to special projects. Asset
Management Branch (AMB) managers will closely monitor performance to ensure efficient
disposition of remaining assets. Also, once the new asset servicing environment is finalized, the
AMB will revise its internal filing policy to ensure that it provides the efficiencies needed. The
proposed new asset servicing environment should reduce the requirement for inordinate amounts
of hard copy documentation.

Management’s action was responsive to the recommendation. The recommendation is
considered resolved but will remain undispositioned and open until we have determined that
agreed-to corrective actions have been completed and are effective.




                                                 7
                                                                                   APPENDIX I

                      OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of the audit was to determine whether DRR is adequately and efficiently managing
and processing internally serviced loans. DRR’s policies and procedures established for activities
related to loan servicing are included in the ADM and the FDIC’s Field Financial Operations
Accounting Manual. DRR was in the process of rewriting its ADM during the audit. Our work
was based on the policies and procedures established under the ADM dated March 16, 1999. We
did not review asset marketing strategies or other activities related to DRR’s sale of receivership
assets in conjunction with this audit. The audit scope covered the FDIC’s receivership loan
inventory as of August 31, 2004. As of this date, the FDIC’s NPS included 273 loans with a total
book value of $119 million. We limited our audit testing to the asset management function
because during the survey phase of our audit, we determined that the loan processing function had
recently been tested by the U.S. Government Accountability Office (GAO) in conjunction with its
work on the FDIC’s 2004 financial statement audit. We performed our work from September
through December 2004 in accordance with generally accepted government auditing standards.
To accomplish our objectives and to gain an understanding of internal controls, we reviewed the
following documents:
   •   The FDIC’s 2004 Annual Performance Plan for the Receivership Management Program;
   •   DRR 2004 Strategic Plan;
   •   DRR Asset Disposition Manual, dated March 16, 1999;
   •   FDIC Field Financial Accounting Manual, dated October 1996; and
   •   GAO’s “Cycle Memo” (the segments related to the FDIC’s receivership receipts process)
       for the 2004 FDIC financial statement audit.

We interviewed key personnel in DRR’s Financial Processing Unit, Asset Management Section
and Asset Marketing Section to further identify procedures for internal loan servicing and related
activities. We selected a random sample of 31 loans from the FDIC’s NPS loan inventory as of
August 31, 2004. For each loan selected, we reviewed the asset files for compliance with DRR’s
ADM and evidence of loan management activity. We determined whether the file was created in
accordance with DRR’s ADM and whether necessary documents were included in the asset file
such as appraisals, financial statements, promissory notes, credit reports, and documentation
indicating contact with the debtor. For each loan, we researched the CNS to determine whether
the asset was being efficiently managed. We interviewed account officers and supervisors in
DRR’s Asset Management Section to further determine the status and actions taken regarding the
loans in our audit sample.
We contacted GAO staff responsible for conducting testing on the receivership receipts process to
determine the extent and results of testing conducted during GAO’s audit of the FDIC’s financial
statements. We also met with DRR Internal Review Specialists to determine the extent and
results of testing they had performed related to DRR’s asset files. We reviewed DRR’s Internal
Review Report on Management and Maintenance of Loan Related Files, 2004-D-06, dated
April 30, 2004, and subsequent memoranda issued to DRR account officers on file maintenance.




                                                8
                                                                               APPENDIX II

    SUMMARY SCHEDULE OF AUDIT SAMPLE AND EXCEPTIONS REPORTED
                                       Performing Loans
                                                                      Efficiently    Asset File
Loan Type     Book Value       Receivership         Date of Bank      Managed       Created Per
                                                      Failure                           DRR
                                                                                    Instructions
Installment     $ 11,089           Oakwood             02-01-2002         Yes           Yes
Commercial      1,177,069          Hamilton            01-11-2002         Yes           Yes
Commercial         98,458          Reliance            03-19-2004         Yes           Yes
Commercial      1,462,770          Hamilton            01-11-2004         Yes           Yes
Commercial        367,867          Reliance            03-19-2004         Yes           Yes
                                     Non-Performing Loans
Installment      $ 14,246*         Oakwood             02-01-2002         No             Yes
Installment          1,237*        Oakwood             02-01-2002         No             Yes
Installment          7,543*        Oakwood             02-01-2002         No             Yes
Installment          2,000*        Oakwood             02-01-2002         No             Yes
Installment             387        Oakwood             02-01-2002         Yes             No
Installment           2,148        Oakwood             02-01-2002         Yes             No
Installment         10,030*        Superior            07-27-2001         No              No
Commercial          390,968    Hartford Carlisle       01-14-2000         Yes            Yes
Commercial          638,800        Hamilton            01-11-2002         Yes            Yes
Commercial           60,000        Hamilton            01-11-2002         Yes            Yes
Commercial          19,663*        Hamilton            01-11-2002         No              No
Commercial          300,000        Oakwood             02-01-2002         Yes             No
Commercial          11,311*        Oakwood             02-01-2002         No             Yes
Commercial          527,188        Net First           03-01-2002         Yes            Yes
Commercial       6,041,763 Connecticut Bank            06-26-2002         Yes            Yes
Commercial          309,172 Connecticut Bank           06-26-2002         Yes            Yes
Commercial           50,000     Blanchardville         05-09-2003         Yes            Yes
Commercial          451,068        Reliance            03-19-2004         Yes            Yes
Commercial           19,636        Reliance            03-19-2004         Yes            Yes
Commercial          37,398* Connecticut Bank           06-26-2002         No             Yes
Mortgage             7,336*        Oakwood             02-01-2002         No             Yes
Mortgage            22,748*        Oakwood             02-01-2002         No             Yes
Mortgage            19,319*        Oakwood             02-01-2002         No             Yes
Mortgage            103,410     Blanchardville         05-09-2003         Yes             No
Mortgage            267,595        Guaranty            03-12-2004         Yes            Yes
Commercial           27,483 Connecticut Bank           06-26-2002         Yes             No
* These loans are the 11 non-performing loans that could have been managed more efficiently.




                                              9
Appendix III
     APPENDIX III




11
                                                                                                                                                 APPENDIX IV


                                             MANAGEMENT RESPONSES TO RECOMMENDATIONS

This table presents the management responses that have been made on recommendations in our report and the status of recommendations as of the date
of report issuance. The information in this table is based on management’s written response to our report.

                                                                                                                                                       Open
 Rec.                                                                     Expected            Monetary       Resolved3 :    Dispositioned4 :            or
Number         Corrective Action: Taken or Planned/Status              Completion Date        Benefits       Yes or No         Yes or No              Closed5
              DRR has instructed supervisors to review every
              loan asset to ensure that all loans are being
      1       actively managed and that a cost effective                   May 31, 2005           N/A            Yes                No                 Open
              disposition strategy is in place. Further, DRR
              management will again remind all account
              officers of the DRR requirements regarding
              asset files.




3
    Resolved – (1) Management concurs with the recommendation and the planned corrective action is consistent with the recommendation.
               (2) Management does not concur with the recommendation but planned alternative action is acceptable to the OIG.
               (3) Management agrees to the OIG monetary benefits or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long as
                          management provides an amount.
4
  Dispositioned – The agreed-upon corrective action must be implemented, determined to be effective, and the actual amounts of monetary benefits achieved through
implementation identified. The OIG is responsible for determining whether the documentation provided by management is adequate to disposition the
recommendation.
5
    Once the OIG dispositions the recommendation, it can then be closed.

                                                                                  12
